HHS/OIG - Audit, "Reviews of Three States Systems and Procedures for Recovering and Refunding Overpayments Made Under the Aid to Families with Dependent Children Program," (A-06-01-00035, A-06-01-00073, and A-05-01-00030)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Reviews of Three States’ Systems and Procedures for Recovering
and Refunding Overpayments Made Under the Aid to Families with Dependent Children
Program," (Texas - A-06-01-00035, Louisiana - A-06-01-00073, and Illinois
- A-05-01-00030)
January 29, 2002
Complete
Text of Report is available in PDF format (3.85 MB). Copies can also be
obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
States are required to pursue and recover overpayments made prior to October
1, 1996 under the Aid to Families with Dependent Children (AFDC) program and
return the Federal share to the Federal Government. Reviews in three States
(Texas, Louisiana, and Illinois) showed the States had systems to identify
and collect AFDC overpayments but did not refund to the Federal Government
its proportionate share of those collections. The three States owed a total
of $31 million (Texas $14 million, Louisiana $1 million and Illinois $16 million).
In response to our recommendations, Louisiana and Illinois agreed to refund
their shares. Texas did not, citing what it called contradictory guidelines
from the Administration for Children and Families (ACF). However, the regulations
are clear on what was required of the States. The ACF should pursue collection
of the $14 million from Texas.